    QUALITY CONTROL REVIEW OF GRANT THORNTON LLP
       AND THE DEFENSE CONTRACT AUDIT AGENCY
                  THE CNA CORPORATION
          FISCAL YEAR ENDED SEPTEMBER 30,1996


Report Number PO 98-6-015                July 30, 1998




             Office of the Inspector General
                 Department of Defense
Additional    Copies

To obtain additional copies of this report, contact the Secondary Reports Distribution Unit of
the Analysis, Planning, and Technical Support Directorate at (703) 604-8937 (DSN 664-8937)
or FAX (703) 604-8932 or visit the Inspector General, DOD, Home Page at:
WWW.DODIG.OSD.MIL

Suggestions   for Future Audits or Evaluations

To suggest ideas for or to request future audits or evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-9098; by
sending an electronic message to Hotline@DODIG.OSD.MIL; or by writing to the Defense
Hotline, The Pentagon, Washington, DC 20301-1900. The identity of each writer and caller
is fully protected.




Acronyms

CNA             The CNA Corporation
DCAA            Defense Contract Audit Agency
GAAS            Generally Accepted Auditing Standards
GAGAS           Generally Accepted Government Auditing Standards
GAO             General Accounting Office
OMB             Office of Management and Budget
                                    INSPECTOR     GENERAL
                                  DEPARTMENT       OF DEFENSE
                                    400 ARMY    NAVY DRIVE
                                  ARLINGTON,    VIRGINIA 22202




                                                                        July 30, 1998

Christ1 M. Kasler, Partner
Grant Thornton LLP
2070 Chain Bridge Road, Suite 375
Vienna, VA 22 182-2536

Director, Defense Contract Audit Agency
8725 John J. Kingman Road, Suite 2135
Fort Belvoir, VA 22060-6219


SUBJECT:    Quality Control Review of Grant Thornton LLP
             and the Defense Contract Audit Agency
            The CNA Corporation
            Fiscal Year Ended September 30, 1996
            Report No. PO98-6-015 (Project No. 80A-9-008.08)


Introduction

      We are providing this report for your information. The Vienna, Virginia, office of
      Grant Thornton LLP (Grant Thornton), and the Defense Contract Audit Agency
      (DCAA), performed the single audit for The CNA Corporation (CNA), Alexandria,
      Virginia, a nonprofit organization. The audit is required by Office of Management and
      Budget (OMB) Circular A-133, “Audits of Institutions of Higher Education and Other
      Nonprofit Institutions.” For the fiscal year ended September 30, 1996, the CNA
      reported total Federal expenditures of $46,896,000 representing $44,021,000 for the
      Department of Defense (DOD), and $2,875,000 for other Federal agencies.

      The Grant Thornton audit report is dated November 20, 1996. Grant Thornton issued
      an unqualified opinion on the financial statements, Schedule of Federal Awards,
      internal controls and compliance requirements. The DCAA audit report on incurred
      costs is dated October 31, 1997. The audit report was issued to determine allowability
      of direct and indirect cost rates for the period from September 23, 1995, through
      September 22, 1996. CNA submitted its indirect cost proposal and its Certificate of
      Indirect Costs on December 31, 1996. The DCAA questioned $265,743 related to
      general and administrative expenses and $117,818 related to other direct costs.
      Specifically, the questioned costs were due to noncompliance with cost principles and
      standards and inadequately supported and/or unallowable costs claimed by CNA.
     Grant Thornton issued positive and negative assurance statements on compliance with
     general requirements. Positive assurance means that, with respect to the items tested,
     the results of auditors’ procedures disclosed no material instances of noncompliance.
     Negative assurance means that, with respect to the items not tested, nothing came to the
     auditors’ attention that caused them to believe that CNA has not complied in all
     material respects.

     Grant Thornton also obtained an understanding of the internal controls related to the
     financial statements and Federal awards. The audit report describes the auditors’ scope
     of work in obtaining that understanding and in assessing control risk. The report on
     internal controls further describes the significant internal controls and control structure,
     including reportable conditions, material weaknesses, and controls that provide
     reasonable assurance that Federal awards are being managed in accordance with
     applicable laws and regulations.

Quality Control Review Results

     The working papers supporting the OMB Circular A-133 audit, performed by Grant
     Thornton and DCAA meet the applicable guidance and regulatory requirements in the
     Circular, its related Compliance Supplement, Generally Accepted Government Auditing
     Standards, Generally Accepted Auditing Standards and the provisions of the Federal
     award agreements.

Quality Control Review Objective

     The objective of a quality control review is to ensure that the audit was conducted in
     accordance with applicable standards and meets the auditing requirements of OMB
     Circular A-133. As the Federal oversight agency for the CNA, we conducted a quality
     control review of Grant Thornton and DCAA working papers for their audit of the
     CNA. We focused our review on the following qualitative aspects of the audit: due
     professional care, planning, supervision, independence, quality control, internal
     controls, substantive testing, general and specific compliance testing, and the Schedule
     of Federal Awards.

     We reviewed the most recent peer review letter issued by BDO Seidman, LLP, and
     dated October 3, 1995. The peer review found that Grant Thornton met the objectives
     of the quality control review standards established by the American Institute of
     Certified Public Accountants and that the standards were being complied with during
     the fiscal year ended June 30, 1996. However, the peer review letter contained a
     recommendation to improve the comprehensiveness of documentation supporting
     significant matters.
Scope and Methodology

     We used the 1991 edition of the Uniform Quality Control Guide for Single Audits (the
     Guide) that was approved by the President’s Council on Integrity and Efficiency as
     guidance for performing the quality control review procedures. The Guide is organized
     by the general and field work audit standards and the required elements of a single
     audit. The Guide is further divided into the substantive work performed during the
     audit of the financial statements and the specific program compliance testing for major
     programs. In addition, we supplemented the Guide to include additional review of
     transaction testing. Our review was conducted from March 30 through April 4, 1998.

      Our quality control review of the audit working papers covered areas related to the
      financial statements and the research and development program. The research and
      development program expenditures totaled approximately $46.9 million and accounted
      for 100 percent of total Federal award expenditures at the CNA.

Results of Prior Quality Control Reviews

     Since January 1, 1996, we performed one quality control review of Grant Thornton and
     reported no material findings. The DCAA reports and operations are reviewed by this
     office on an ongoing basis.


Background

     The Inspector General Act of 1978, Public Law 95-452, prescribes the duties and
     responsibilities of that office. In implementing those responsibilities, the Inspector
     General is required to “take appropriate steps to assure that any work performed by
     non-Federal auditors complies with the standards established by the Comptroller
     General. ”

     The Single Audit Act of 1984 (Public Law 98-502) (the Act) was intended to improve
     the financial management of state and local governments whose total annual
     expenditures are $100,000 or more with respect to Federal financial assistance
     programs; to establish uniform requirements for audits of Federal financial assistance;
     to promote efficient and effective use of audit resources; and to ensure that Federal
     departments and agencies rely on and use the audit work done under the Act, to the
     maximum extent practicable.

     The Single Audit Act Amendments of 1996 (the Amendments), based on 12 years of
     experience under the 1984 Act, are intended to strengthen the usefulness of single
     audits by increasing the audit threshold from $100,000 to $300,000 in Federal financial
     assistance before an audit is required under the Act; by selecting programs to be
     audited on the basis of risk assessment rather than the amount of funds involved; and


                                              3
      by improving the contents and timeliness of single audits. The Amendments also bring
      nonprofit organizations, previously covered by similar requirements in the OMB
      Circular A-133, under the Single Audit Act provisions.

      The OMB Circular A-133 establishes the Federal audit and reporting requirements for
      nonprofit and educational institutions whose Federal awards are or exceed $100,000. It
      provides that an audit made in accordance with the Circular shall be in lieu of any
      financial audit required under individual Federal awards. An agency must rely on the
      audit to the extent that it provides the information and assurances that an agency needs
      to perform its overall responsibilities. The coordinated audit approach provides for the
      independent public accountant, Federal auditor, and other non-Federal auditors to
      consider each other’s work in determining the nature, timing, and extent of their
      respective audit procedures. The Circular also requires that the cognizant agency
      obtain or conduct quality control reviews of selected audits made by non-Federal
      auditors and provide the results, when appropriate, to other interested organizations.
      The revised OMB Circular A-133 was issued on June 24, 1997, to incorporate the
      changes in the Single Audit Act Amendments of 1996. Its provisions apply to audits of
      fiscal years beginning after June 30, 1996.


Discussion of Results

      During our quality control review, we reviewed and took no exception to the working
      papers supporting the following reports:

      Report of Independent    Certified Public Accountants.    The auditor is required to
      obtain reasonable assurance about whether the financial statements are free of material
      misstatement. We reviewed the audit program and the testing of evidence to determine
      whether testing was sufficient, based on assessment of control risk, to warrant the
      conclusion reached and whether the working papers supported the conclusion.

      Report of Independent Certified Public Accountants on Schedule of Federal
      Awards. The auditor is required to subject the schedule to the auditing procedures
      applicable to the audit of the financial statements and to ensure that the amounts are
      fairly stated in relation to the basic financial statements. Our review was included in
      the steps of evaluation of the audit working papers related to the Independent Auditors’
      Report.

      Schedule of Federal Awards. The recipient is responsible for creating the Schedule of
      Federal Awards. The auditor is required to audit the information in the Schedule and
      to ensure that it identifies major programs, as defined by OMB Circular A-133, and
      total expenditures for each program. We reviewed the audit program for the
      appropriate procedures, reviewed a selected number of footings/cross footings, and
      traced some of the amounts to the subsidiary Ledger and/or Trial Balance.


                                              4
Report of Independent Certified Public Accountants on the Internal Control
Structure in Accordance with Government Auditing Standards. The auditor is
required to obtain an understanding of the internal controls that is sufficient to plan the
audit and to assess control risk for the assertions embodied in the financial statements.
We reviewed the audit program for the appropriate procedures, the working paper
documentation, and the substantive testing performed.

Report of Independent Certified Public Accountants on the Internal Control
Structure Required by OMB Circular A-133. The auditor is required to obtain an
understanding of the internal controls to assess control risk to determine whether the
auditor intends to rely on the internal controls. The auditor must perform tests of
controls to evaluate the effectiveness of the design and operation of the policies and
procedures in preventing or detecting material noncompliance, to review the system for
monitoring subrecipients and obtaining and acting on subrecipient audit reports, and to
determine whether controls are effective to ensure that direct and indirect costs are
calculated and billed in accordance with the general requirements in the Compliance
Supplement. We reviewed the audit program for the appropriate procedures, the
working paper documentation, and the test of controls performed.

Report of Independent Certified Public Accountants on Compliance with Laws,
Regulations, Contracts and Grants Based on an Audit of Financial Statements
Performed in Accordance with Government Auditing Standards. The auditor is
required to determine whether the recipient has complied with laws and regulations that
may have a direct and material effect on the determination of financial statement
amounts. We reviewed the audit program for the appropriate procedures, the working
paper documentation, its support, and the compliance tests performed.

Report of Independent Certified Public Accountants on Compliance With General
Requirements Applicable to Major Programs. The auditor is required to determine
whether the recipient has complied with laws and regulations that may have a direct and
material effect on any of its major Federal programs. General requirements are those
that could have a material effect on the recipient’s financial statements including those
prepared for Federal programs. The auditors’ procedures were limited to those
prescribed in the OMB Circular A-133 Compliance Supplement. We reviewed the
audit program for the appropriate procedures, compared the audit program steps to
those in the Compliance Supplement to make sure that all areas are audited, reviewed
the working paper documentation and its support, reviewed the compliance tests
performed, and reevaluated selected compliance items.

Report of Independent Certified Public Accountants on Compliance With Specific
Requirements Applicable to Major Programs. The auditor is required to determine
whether the recipient has complied with laws and regulations that may have a direct and
material effect on its major Federal programs, including Types of Services Allowed or
Unallowed; Eligibility; Matching, Level of Effort, and/or Earmarking Requirements;
Special Reporting Requirements; and Special Tests and Provisions. We reviewed the


                                          5
        material effect on its major Federal programs, including Types of Services Allowed or
        Unallowed; Eligibility; Matching, Level of Effort, and/or Earmarking Requirements;
        Special Reporting Requirements; and Special Tests and Provisions.   We reviewed the
        audit program for the appropriate procedures, checked the audit program steps to those
        in the Compliance Supplement to make sure all areas were audited, reviewed the
        working paper documentation and its support, reviewed the compliance tests
        performed, and reevaluated selected compliance items.

       Report of Independent Certified Public Accountants on Compliance with Specific
       Requirements Applicable to Nonmajor Program Transactions.            The auditor is
       required to issue a report on nonmajor programs that provides a statement of positive
       assurance on those items that were tested for compliance and negative assurance on
       those items not tested. If the auditor has not selected any nonmajor program
       transactions or if the entity has no nonmajor programs, no report is required. We
       ensured that, when the auditor had selected such transactions, they were tested for
       compliance with the specific requirements that apply to the individual transactions.

       Schedule of Findings and Questioned Costs. CNA reported no material findings in
       fiscal year ended September 30, 1996. The DCAA questioned $265,743 of claimed
       general and administrative costs and $117,818 of direct costs.

Comments

       Because this report contains no findings or recommendations,  written comments are not
       required. We appreciate the courtesies extended during our review. If you have
       questions on this report, please contact Ms. Barbara Smolenyak, at (703) 604-8760.
       The report distribution is in the Enclosure.




                                      Donald&. Davis
                              Deputy Assistant Inspector General
                                 Audit Policy and Oversight
Enclosure
                                  The CNA Corporation
                          Fiscal Year Ended September 30, 1996

                                     Distribution   List



The Board of Trustees
The CNA Corporation
4401 Ford Avenue
Alexandria, VA 22302-8268

Contracting Officer
Indirect Cost Division
ATTN: Ms. C. Luedeke
Office of Naval Research
800 North Quincy Street
Arlington, VA 222 17-5660

Director, Defense Procurement
Office of the Under Secretary of Defense
 for Acquisition and Logistics
3060 Defense Pentagon
Washington, DC 2030 l-3060

Director of Defense Research and Engineering
Office of the Under Secretary of Defense
 for Acquisition and Logistics
3030 Defense Pentagon
Washington, DC 2030 l-3030

Branch Manager
Defense Contract Audit Agency
Alexandria Branch Office
6800 Vesar Center, Suite 371
Springfield, VA 22 151




                                                                 Enclosure 1
Evaluation Team Members

This report was prepared by the Financial, Performance and Single Audits Division,
Office of the Deputy Assistant Inspector General for Audit Policy and Oversight, DOD.

Barbara E. Smolenyak
Donald D. Steele
Sunil R. Kadam
Janet C. Johnson
